No. ____________
In the

Supreme Court of the United States
MICHAEL BUCK
Petitioner,
v.
THE STATE OF TEXAS
Respondent.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

The Petitioner asks leave to file the attached petition for writ of certiorari
without prepayment of costs and to proceed in forma pauperis.
Petitioner has previously been granted leave to proceed in forma pauperis by
the 243rd District Court of El Paso County, Texas. Petitioner’s affidavit or
declaration is not attached because the trial court appointed counsel in the current
proceeding and a copy of the order appointing is appended.
Respectfully submitted,
/s/ Nicholas Vitolo
Nicholas C. Vitolo
Counsel of Record
HARRIS COUNTY PUBLIC DEFENDER
1201 Franklin St., 13th Floor
Houston, Texas 77002
(713) 274-6966
nick.vitolo@pdo.hctx.net

Filed 5/25/2017 11:23:08 AM

El Paso County - 243rd District Court
I N THE I

THE 243'11 J UD ICI A L DISTRICT COURT
EL PASO CO UNTY, TEXAS

NORMA FAVELA BARCELEAU
District Clerk
El Paso County
20160D01234

THE STATE OF TEXAS

vs.
Case 1 o. 20I60DO1234
SO:
ARRESTED: 03101 12016
WARRA T:

M ICHAEL J. BUCK
DOB: August 23, 1950
OFFE1 SE:AGG SEXUAL ASS L T; A GG SEXUAL ASSL T
BO D AMT:

Dear, PUBLIC DEFE1 DER
YOU HAVE BEE1 APPOINTED TO REPRESE 'T THE DEFE DA T I1 THE ABOVE-STY L ED A1 D NUM BERED CAUSE. THI S
AP POl 1 TME T CONTINUES U TIL CHARGES ARE DISMISSED, TH E DEFE1 DANT IS ACQUITTED. APPEALS ARE EXHAUSTED TO
THE 8 111 COURT OF APPEALS. OR IN THE CASE OF A DEATH PE ALTY CASE, COMPLETIO OF THE DIRECT APPEAL TO TH E
COURT OF CRIMl 1 AL APPEALS. THE ATTORNEY MAY BE RELIEVED OF THI S APPOI1 TME1 T OR REPLACED BY OTHER
COUNSEL 0 1 LY AFTER A Fl 1 DI NG OF GOOD CAUSE IS E1 TERED 0 1 TH E RECORD (ART. 26.04 (j) (2). YOU ARE 1 OT RELI EV ED
OF THI S APPOl 1 TMENT A. D CANNOT BE RELIEVED OF THIS DUTY EYE1 BY SUBSTITUTION WITHOUT A MOTION A D ORDER
SIG ED BY THE COURT (SEE LOCAL RULE 5.03).
ATTACHED IS TH E .. ATTOR1 EY VERIFI CATION .. FORM WH ICH MUST BE FI LLED OUT. SIG1 ED BY DEFE1 DAN T A D ATTORNEY
A1 D RETUR ED TO THE DE PARTMENT WHICH MADE THE APPOITNMENT:
BY FAX AT (546-20 19) OR HA D-DELI VER/MA IL
I.
COUNCI L OF JUDGES ADM. 500 E. SAN A1 TO 10 # I 01 , EL PAS O TX 7990l (FAX NUMBER 546-2019)
2. THE OFFICE OF COURT ADMINISTRATI01 , 500 E. SAN ANTON IO #302, EL PASO, T EXAS 79901
(FAX UMBER 526-2192
3. THE TRI AL COURT
BY THE E1 D OF THE FIRST WORKI NG DAY FOLLOWING RECE IPT OF THE APPOINTME1 T NOTIFICATI01 .
A TRI AL COURT :VIAY REPLACE AN ATTORNEY WHO FAI LS TO CONTACT THE DEFENDANT 1 OT LATER THAi THE
END OF TH E FIRST WORKING DAY AFTER TH E DATE ON WH ICH THE ATTOR , EY IS APPOINTED A1 D TO 11 TERVIEW T HE
DEFE1 DA. T AS SOOi\ AS PRACTICABLE AFTER THE ATTOR. EY IS APPOlt TED. A MAJORITY OF THE JUDGES (TRYl 1 G
CRIM l 1 AL CASES) MAY RE!YIOYE A ATTORNEY WHO 11 TENTI0 1 AL LY OR REPEATEDLY VIOLATES CCP ARTICLE 26.04 (j)(I)
FROM THE APPOli TNI E T WHEEL. CCP ART. 26.04 (k)
IF THE DEFE, DANT IS I. CUSTODY IN THE EL PASO COUNTY DETE T IO FACILITY OR TH E AN EX, YOU SHALL MAKE
EVERY REASONABLE EFFORT TO C01 TACT TH E DEFENDANT 1 OT LATER TH A t TH E DEFE DANT 1 OT LATER THAN THEE D
OF T HE FIRST WORKING DAY AFTER THE DATE ON WHICH YOU ARE APPOl 1 TED A t D TO INTERV IEW THE DEFENDA T AS
SOON AS PRACTICABLE AFTER YOU ARE APPOINTED. WHEN THE CASE IS DI SPOSED OR TH E DEFENDA1 T FAILS TO SHOW UP
TO COURT. PLEASE FIL E THE VOUC HER WITH TH E TRIA L COURT WITHI N 45 DAYS. YOU MAY USE ADD ITIONAL SHEETS IF
IECESSARY. I YESTIGATION A t D CERTA IN OTHER EXPENSES M UST HAYE PRIOR COU RT APP ROVAL. SEE ATTO RNEY
REIMBURSEM E T GUIDE LI NES.
SIGNED 0 1 T HIS THE 25TH DAY OF MAY, 2017,
-

L UIS AGU I LAR
243RDJ UDICIAL DISTRICT
FACI LITY: Annex Cel l: I
BO DI G COMP A t Y:
PUBLIC D EFE1 DER
500 E SAt A TO 10 #501
EL PASO TX 7990 I
9 15-546-8186

(FORM APPROVED BY THE CO UNCIL OF JUDGES 7/3 1/2014)

19

